A20-0633
STATE OF MINNESOTA IN COURT OF APPEALS

Udoh v. State
Decided Feb 1,2021

Udoh, No. A14-2181, 2016 WL 687328 (Minn.
App. Feb. 22, 2016), review denied (Minn. Apr.
27, 2016).

A20-0633
02-01-2021
Emem Ufot Udoh, petitioner, Appellant, v. State
of Minnesota, Respondent.

3. Appellant subsequently filed a first petition for
postconviction relief, seeking relief on ten
separate legal grounds. The district court issued an
order dismissing all but one of appellant's claims.
The district court summarily ruled against
appellant on six of the ten claims as Knaffla barred
and dismissed three of the claims on their merits
without a hearing. A hearing was set on the one
remaining claim regarding a request for a new trial
based on alleged victim recantation, which was
ultimately denied. This court dismissed appellant’s
appeal of this denial due to appellant's repeated
failure to file a timely brief. State v. Udoh, No.
A19-1129 (Minn. App. Mar. 23,2020) (order).

Judge Randall Slieter

ORDER OPINION
Hennepin County District Court
File No. 27-CR-13-8979 Considered and decided
by Cochran, Presiding Judge; Jesson, Judge; and
Slieter, Judge.

BASED ON THE FILE, RECORD, AND
PROCEEDINGS, AND BECAUSE:
1. Appellant Emem Ufot Udoh appeals the district
court's dismissal of his second petition for
postconviction relief. Because appellant's claims
were properly dismissed as barred by State v.
Knaffla, 243 N.W.2d 737 (Minn. 1976), we affirm.

2

4. During the evidentiary hearing involving the
one remaining claim in the first petition, appellant
filed a second petition for postconviction relief,
seeking relief on six grounds. With one exception,
the grounds for relief in this second postconviction
petition were restatements of the claims found in
appellant's first postconviction petition. The
district court dismissed this second petition in its
entirety which is the subject of this current appeal.

2. In August 2014, appellant was found guilty of
one count of first-degree criminal sexual conduct
and two counts of second-degree criminal sexual
conduct. On direct appeal, we affirmed regarding
(1) the admissibility of certain expert testimony,
(2) the district court's limitation of victim crossexamination, (3) admission of certain other
evidence, (4) alleged prosecutorial misconduct,
and (5) denial of a motion for a judgment of
acquittal, but reversed appellant's conviction on
one of the two second-degree criminal sexual
conduct charges, finding it to be a lesser-included
offense of the first-degree *2 conviction. State v.
3

casetext

5. Pursuant to Knaffla, a petition for
postconviction relief raising claims that were
raised on direct appeal or in an earlier petition for
postconviction relief, or that were known or
should have been known but were not raised at the
time of direct appeal or postconviction petition, is
procedurally barred. Powers v. State, 731 N.W.2d
499, 501 (Minn. 2007). *3

1

Udoh v. State

A20-0633 (Minn. Ct. App. Feb. 1,2021)

6. All but one claim made in appellant's second
petition
for
postconviction
relief were
restatements of the claims raised by appellant in
his first postconviction petition, and are, therefore,
barred. Id. The one claim not raised in those prior
proceedings involves appellant's purported right to
"consular assistance" pursuant to Article 36 of the
Vienna Convention and Sanchez-Llamas v.
Oregon, 548 U.S. 331, 126 S. Ct. 2669 (2006).
However, this claim is also barred because
appellant either knew of or should have known of
this claim and failed to raise it in those prior proceedings. Powers, 731 N.W.2d at 501.
Furthermore, while there exist exceptions to the
Knaffla rule, such as when (1) a novel legal issue
is presented, or (2) the interests of justice so
require, Powers, 731 N.W.2d at 502, no such
exceptions apply here. The district court was

correct in dismissing appellant's second
postconviction petition because the claims set
forth therein were procedurally barred.
IT IS HEREBY ORDERED:
1. The district court's order is affirmed.
2. Pursuant to Minn. R. Civ. App. P. 136.01, subd.
1(c), this order opinion is nonprecedential, except
as law of the case, res judicata, or collateral
estoppel.
Dated: February 1, 2021
BY THE COURT
Is!
Judge Randall Slieter

casetext

2

i :

March 30, 2021

STATE OF MINNESOTA

Offkeof
Appoiate Courts

IN SUPREME COURT
A20-0633
irniem Ufot u'doh,
Petitioner,
vs.

State of Minnesota,
Respondent.

ORDER
Based upon all the files, records, and proceedings herein,
*

IT IS HEREBY ORDERED that the petition of Emem Ufot Udoh for further review
be, and the same is, denied.
BY THE COURT:

Dated: March 30, 2021

j

i

Lorie S. Gildea
Chief Justice

f

j

